                                              OFFICE OF WORKERS’
Office of Inspector General—Office of Audit   COMPENSATION PROGRAMS




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2010 and 2009


                                                This report was prepared by KPMG, LLP, under contract to the U.S.
                                                Department of Labor, Office of Inspector General, and by acceptance, it
                                                becomes a report of the Office of Inspector General.



                                                                               ____________________________
                                                                               Assistant Inspector General for Audit


                                                                                  Date Issued:          June 10, 2011
                                                                               Report Number:        22-11-005-04-432
                                    District of Columbia Workmen’s Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report



                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND

                                  TABLE OF CONTENTS
                                                                                           Page
ACRONYMS                                                                                      iii
Management’s Discussion and Analysis
  Mission and Organizational Structure                                                        1
  Financial Highlights                                                                        2
  Performance Goals and Results                                                               3
  Internal Controls and Systems                                                               3
  Known Risks and Uncertainties                                                               4
  Limitations of the Financial Statements                                                     4
Independent Auditors’ Report                                                                  5
FINANCIAL STATEMENTS
  Balance Sheets                                                                             11
  Statements of Net Cost                                                                     12
  Statements of Changes in Net Position                                                      13
  Statements of Budgetary Resources                                                          14

NOTES TO THE FINANCIAL STATEMENTS
  Note 1 – Summary of Significant Accounting Policies                                        15
  Note 2 – Funds with U.S. Treasury                                                          18
  Note 3 – Investments                                                                       19
  Note 4 – Accounts Receivable, Net                                                          20
  Note 5 – Other Liabilities                                                                 21
  Note 6 – Status of Budgetary Resources                                                     22
  Note 7 – Reconciliation of Budgetary Resources Obligated
           to Net Cost of Operations                                                         23
  Note 8 – Concentration of Risk                                                             23




_________________________________________________________________________________________
                                          U.S. Department of Labor – Office of Inspector General
i                                                             Report Number: 22-11-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




  _________________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
ii                                                              Report Number: 22-11-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report




                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND


                                           Acronyms



AUP           Agreed Upon Procedures

DCCA          District of Columbia Workmen’s Compensation Act

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

FY            Fiscal Year

LHWCA         Longshore Harbor Workers’ Compensation Act

OMB           Office of Management and Budget

OWCP          Office of Workers’ Compensation Programs

U.S.C.        United States Code




  _________________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
iii                                                             Report Number: 22-11-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




 _________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
iv                                                             Report Number: 22-11-005-04-432
                                District of Columbia Workmen’s Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report



                        DISTRICT OF COLUMBIA WORKMEN’S
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                              September 30, 2010 and 2009


Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under Section 44 of the Longshore Harbor Workers’ Compensation Act
(LHWCA); the Longshore and Harbor Workers’ Compensation Act Special Fund created
under the original Act in 1927 and the Special Fund under the District of Columbia
Workmen’s Compensation Act of 1928 (DCCA). These Funds were established for the
primary purpose of equitably distributing among all employers the liabilities associated
with second injury claims (a “second injury” is an injury to a worker which, in combination
with an existing permanent partial impairment, results in the worker’s increased
permanent disability or death).

The reporting entity is the Fund. Organizationally the Fund is administered by the DOL,
Office of Workers’ Compensation Programs (OWCP), Division of Longshore and Harbor
Workers’ Compensation program (DLHWC). The DLHWC has direct responsibility for
administration of the Fund. The mission of the Fund is to effectively administer a program
of compensation and medical benefits to cover workers who are injured on the job or
suffer from occupational disease. The DLHWC has direct responsibility for all aspects of
the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain
cases, medical care payments to District of Columbia employees for work related injuries
or death. Effective July 26, 1982, the District of Columbia became responsible for
administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation
services for job-related injuries, diseases or death of certain private-sector workers in the
District of Columbia. Generally, benefits are paid directly from private funds by an
authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the LHWCA as extended to DCCA are paid from the Fund
comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In fiscal year (FY) 2010 and 2009, 529 and 550 injured workers and their
dependants received compensation benefits from the Fund.

Additionally, the District of Columbia Workmen’s Compensation Act incorporates Section
10(h) of the LHWCA, which provides annual wage increase compensation (cost of living
adjustments). Fifty percent of this annual wage increase for pre-1972 compensation


                                         U.S. Department of Labor – Office of Inspector General
                                            1                Report Number: 22-11-005-04-432
                               District of Columbia Workmen’s Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                       DISTRICT OF COLUMBIA WORKMEN’S
                       COMPENSATION ACT SPECIAL FUND
                        Management’s Discussion and Analysis
                             September 30, 2010 and 2009


cases is paid by Federal appropriated funds, and fifty percent is paid by the Fund through
the annual assessment.

Appropriated funding for Section 10(h) is not reflected in the accompanying financial
statements. Appropriated funding is reflected in the Federal Employees Compensation
Act’s Special Benefits Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but
can only be disbursed as specified in Section 44(i) of the LHWCA. Administrative
services for operating the Fund are provided by the OWCP through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the
accompanying financial statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$8,431,773 in FY 2010. This compares with assessment revenue of $10,730,052 for FY
2009. During FY2010 and FY2009 no recoveries were made for the Fund due to
activities involving the application of Agreed Upon Procedures (AUP) on Forms LS-513,
Report of Payments (used in the calculations of the annual assessments), and
negotiation/collection of past due assessments. The AUP activities have uncovered
common industry reporting errors and other industry record keeping mistakes made by
carriers which, when discovered, have been eliminated. Recoveries, if any, have and will
continue to reduce carrier assessments and are reflected in the Assessments line on the
Statement of Changes in Net Position.

In addition, investment income for the Fund was $4,773 for FY 2010 compared to $3,572
for FY 2009. The average interest rate earned during FY 2010 was 0.10% compared to
0.13% for FY 2009.

The Fund’s costs remained relatively stable compared to FY 2009; $9,358,393 for FY
2010 compared to $9,777,283 for FY 2009. Proceeds of the Fund are used for payments
under: Section 8(f) for second injury claims; Section 10(h) for initial and subsequent
annual adjustments in compensation for permanent total disability or related death from
injuries which occurred prior to the effective date of the 1972 LHWCA amendments; and
Section 18(b) for compensation to injured workers in cases of employer default.


                                        U.S. Department of Labor – Office of Inspector General
                                           2                Report Number: 22-11-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report



                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2010 and 2009


Performance Goals and Results

DCCA supports the Department of Labor’s Strategic Goal 4 – Strengthened Economic
Protections. This goal broadly promotes the economic security of workers and families. In
particular, the DCCA program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in
ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The DCCA program assists in meeting this outcome
goal by establishing the long term performance goal of ensuring sufficient funds are
assessed to fund the annual payments, and by prompt payment to the beneficiaries.
These targets were achieved. The assessments were sufficient to cover the costs, and
no beneficiaries suffered a delayed payment.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessments is a very small unit comprised of four
employees and one supervisor, all working in very close proximity to each other. Much of
the oversight, evaluation, monitoring, and control and almost all of the supervisory
activity is informal, done on a face-to-face basis. Similarly, each of the district offices is in
itself a small unit, operating in the same fashion as the Branch of Financial Management,
Insurance and Assessments.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

With the exception of certain internal control deficiencies discussed in the Independent
Auditors’ Report, monthly cash basis statements, monthly case management reports,
quarterly review processes, biweekly payment summaries, the SF-224 report and
statement of differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.



                                           U.S. Department of Labor – Office of Inspector General
                                              3                Report Number: 22-11-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report



                         DISTRICT OF COLUMBIA WORKMEN’S
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2010 and 2009


Known Risks and Uncertainties

The DCCA Fund makes assessments on authorized insurers and self-insurers one year
at a time for current expenses; there is no reserve for future Fund obligations. In keeping
with the requirement of Section 44 of the LHWCA, obligations are paid as they are
incurred. Assessments are based on compensation and medical benefits paid in the prior
calendar year. The District of Columbia Workmen’s Compensation Act of 1928 has been
repealed and the DC Special Fund only assesses based on payments in cases that
arose prior to July 26, 1982. The annual Special Fund assessment is assessed against a
shrinking base of industry payments. These payments are concentrated among a
relatively few insurance carriers and self insured employers. For example, the largest ten
insurance carriers and self-insured employers alone fund over 63% of the District of
Columbia assessments. If one or more of the largest payers became insolvent and was
unable to pay their assessment obligations, temporary collection issues would result,
necessitating special, unscheduled assessments or other actions to keep the Special
Fund funded for current liabilities.

Limitations of the Financial Statements

The following limitations are part of the financial statements:

   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, United States Code U.S.C. 3515 (b).
   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by the Office of Management and Budget,
    (OMB), the statements are different from the financial reports used to monitor and
    control budgetary resources which are prepared from the same books and records.
   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




                                          U.S. Department of Labor – Office of Inspector General
                                             4                Report Number: 22-11-005-04-432
                                       District of Columbia Workmen’s Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report




                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036-3389




                               Independent Auditors’ Report


Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of Labor’s
(DOL) District of Columbia Workmen’s Compensation Act Special Fund (the Fund) as of
September 30, 2010 and 2009, and the related statements of net cost, changes in net
position, and budgetary resources (hereinafter referred to as “financial statements”) for the
years then ended. The objective of our audits was to express an opinion on the fair
presentation of these financial statements. In connection with our fiscal year 2010 audit, we
also considered the Fund’s internal control over financial reporting and tested the Fund’s
compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on these financial statements.
Summary
As stated in our opinion on the financial statements, we concluded that the Fund’s financial
statements as of and for the years ended September 30, 2010 and 2009, are presented
fairly, in all material respects, in conformity with U.S. generally accepted accounting
principles.
Our consideration of internal control over financial reporting resulted in identifying certain
deficiencies that we consider to be a material weakness, as defined in the Internal Control
Over Financial Reporting section of this report, as “Controls Over the Financial Reporting
Process Need Improvement.”
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be reported
under Government Auditing Standards, issued by the Comptroller General of the United
States, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.
The following sections discuss our opinion on the Fund’s financial statements; our
consideration of the Fund’s internal control over financial reporting; our tests of the Fund’s
compliance with certain provisions of applicable laws and regulations; and management’s
and our responsibilities.




                                                           U.S. Department of Labor – Office of Inspector General
                                                           5                   Report Number: 22-11-005-04-432
                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of Labor’s
District of Columbia Workmen’s Compensation Act Special Fund as of September 30, 2010
and 2009, and the related statements of net cost, changes in net position, and budgetary
resources for the years then ended.
In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Labor’s District of Columbia
Workmen’s Compensation Act Special Fund as of September 30, 2010 and 2009, and its
net costs, changes in net position, and budgetary resources for the years then ended, in
conformity with U.S. generally accepted accounting principles.
The information in the Management’s Discussion and Analysis is not a required part of the
financial statements, but is supplementary information required by U.S. generally accepted
accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.
Internal Control Over Financial Reporting
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in internal control over financial reporting that might be significant deficiencies
or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. However, in our fiscal
year 2010 audit, we identified certain deficiencies in internal control over financial reporting
that we consider to be a material weakness.
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis. We consider
the deficiencies described in Exhibit I to be a material weakness.
Compliance and Other Matters
The results of our tests of compliance described in the Responsibilities section of this
report, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.
                                          *******



                                            U.S. Department of Labor – Office of Inspector General
                                            6                   Report Number: 22-11-005-04-432
                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




Responsibilities
Management’s Responsibilities. Management is responsible for the financial statements;
establishing and maintaining effective internal control; and complying with laws and
regulations applicable to the Fund.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year
2010 and 2009 financial statements of the Fund based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free
of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
Fund’s internal control over financial reporting. Accordingly, we express no such opinion.
An audit also includes:
    Examining, on a test basis, evidence supporting the amounts and disclosures in the
     financial statements;
    Assessing the accounting principles used and significant estimates made by
     management; and
    Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
In planning and performing our fiscal year 2010 audit, we considered the Fund’s internal
control over financial reporting by obtaining an understanding of the Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the Fund’s
internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
As part of obtaining reasonable assurance about whether the Fund’s fiscal year 2010
financial statements are free of material misstatement, we performed tests of the Fund’s
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of the financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to the

                                           U.S. Department of Labor – Office of Inspector General
                                           7                   Report Number: 22-11-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




Fund. However, providing an opinion on compliance with laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.
                           ______________________________


The Fund’s response to the finding identified in our audit is presented in Exhibit I. We did
not audit the Fund’s response and, accordingly, we express no opinion on it.
This report is intended solely for the information and use of DOL’s management, DOL’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these
specified parties.



June 10, 2011




                                          U.S. Department of Labor – Office of Inspector General
                                          8                   Report Number: 22-11-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                                                                                        Exhibit I


Controls Over the Financial Reporting Process Need Improvement


During our FY 2010 audit, we noted that the internal controls over the preparation and
review of the Fund financial statements performed by the Office of Workers’ Compensation
Programs (OWCP) Division of Longshore and Harbor Workers’ Compensation program
(DLHWC) and Office of the Chief Financial Officer (OCFO), were not operating effectively.

Specifically we identified the following deficiencies in internal controls over financial
reporting that need to be improved:

   1. Reconciliations between the Fund’s general ledger account balances and balances
      reflected in subsidiary ledgers are not being prepared and reviewed consistently
      throughout the year;
   2. Supervisory review controls, including those over journal entries, are not consistently
      performed;
   3. Controls over the preparation and submission of the SF-224, Statement of
      Transactions are not consistently completed; and
   4. Controls need to be performed consistently to ensure that differences identified by
      Treasury are resolved on a timely basis.

These deficiencies resulted in material errors in the Fund’s financial statements that DOL
adjusted as a result of our observations.

The Government Accountability Office (GAO), Standards for Internal Control in the Federal
Government states, “Internal control should generally be designed to assure that ongoing
monitoring occurs in the course of normal operations. It is performed continually and is
ingrained in the agency’s operations. It includes regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing their
duties.”

GAO’s Standards for Internal Control in the Federal Government also states, “Transactions
should be promptly recorded to maintain their relevance and value to management in
controlling operations and making decisions. This applies to the entire process or life cycle
of a transaction or event from the initiation and authorization through its final classification
in summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that “The
agency head must establish controls that reasonably ensure that obligations and costs are
in compliance with applicable laws; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures
applicable to agency operations are properly recorded and accounted for to permit the

                                            U.S. Department of Labor – Office of Inspector General
                                            9                   Report Number: 22-11-005-04-432
                                    District of Columbia Workmen’s Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report



preparation of accounts and reliable financial and statistical reports . . .”

During the prior fiscal year, OWCP was a component of the Employment Standards
Administration (ESA), which was the agency within DOL responsible for preparing the
Fund’s financial statements. Effective November 8, 2009, the ESA was abolished and
OWCP began reporting directly to the Office of the Secretary of Labor. OWCP’s
accounting staff was also reduced from 5 to 2 professionals during the reorganization.
Subsequent to fiscal year end OWCP hired an additional accounting resource.
Additionally, in January 2010, DOL implemented the New Core Financial Management
System (NCFMS) to replace its legacy accounting and reporting system, the Department
of Labor Accounting and Related Systems (DOLAR$). The implementation of NCFMS
required significant involvement of OWCP’s accounting staff. These staffing reductions
and the increase in demands on the remaining staff prevented OWCP from being able to
dedicate sufficient resources to properly prepare and review the Fund’s financial
statements.

We recommend that DOL improve its internal controls over financial reporting to ensure
that:

   1. Reconciliations between the Fund’s general ledger account balances and balances
      reflected in subsidiary ledgers are being prepared and reviewed consistently
      throughout the year;
   2. Supervisory review controls, including those over journal entries are being effectively
      performed;
   3. SF-224’s are being thoroughly reviewed prior to submission to Treasury; and
   4. Differences identified by Treasury are resolved on a timely basis.


Management’s Response:

DOL management concurs with the findings and corrective action will be taken and
completed in the current fiscal year.


Auditors’ Response:

FY 2011 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.




                                             U.S. Department of Labor – Office of Inspector General
                                             10                  Report Number: 22-11-005-04-432
                                        District of Columbia Workmen’s Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN'S
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2010 and 2009

                         Assets                                             2010              2009
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                                 $     353,404           994,978
   Investments (Note 3)                                                  5,143,000         5,228,000
            Total intra-governmental assets                              5,496,404         6,222,978
Accounts receivable, net of allowance (Note 4)                             147,508           674,339
           Total assets                                              $   5,643,912         6,897,317
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable (Note 1f )                                $      26,076                —
  Deferred revenue                                                       1,875,886         2,858,019
  Other liabilities (Note 5)                                               623,913            59,414
            Total liabilities                                            2,525,875         2,917,433
Net position:
  Cumulative results of operations                                       3,118,037         3,979,884
            Total liabilities and net position                       $   5,643,912         6,897,317


See accompanying notes to financial statements.




                                                      U.S. Department of Labor – Office of Inspector General
                                                 11                       Report Number: 22-11-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKMEN'S
                          COMPENSATION ACT SPECIAL FUND
                                   Statements of Net Cost
                         Years ended September 30, 2010 and 2009


                                                                     2010                 2009
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                    $    8,568,690           8,881,018
  Wage increase compensation, Section 10(h)                          548,257             590,135
  Compensation payment for self-insurer in default,
    Section 18(b)                                                    241,446             306,130
           Net cost of operations                             $    9,358,393           9,777,283


See accompanying notes to financial statements.




                                              U.S. Department of Labor – Office of Inspector General
                                         12                       Report Number: 22-11-005-04-432
                                     District of Columbia Workmen’s Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKMEN'S
                           COMPENSATION ACT SPECIAL FUND
                            Statements of Changes in Net Position
                          Years ended September 30, 2010 and 2009


                                                                       2010                 2009
Cumulative results of operations, beginning                     $    3,979,884           3,023,543
Budgetary financing sources:
  Non-exchange revenues:
    Investment interest                                                  4,773               3,572
    Fines & Penalties                                                   60,000              50,000
    Assessments                                                      8,431,773          10,680,052
            Total non-exchange revenues                              8,496,546          10,733,624
Net cost of operations                                              (9,358,393)         (9,777,283)
            Net position, end of period                         $    3,118,037           3,979,884


See accompanying notes to financial statements.




                                                U.S. Department of Labor – Office of Inspector General
                                           13                       Report Number: 22-11-005-04-432
                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKMEN'S
                          COMPENSATION ACT SPECIAL FUND
                             Statements of Budgetary Resources
                         Years ended September 30, 2010 and 2009


                                                                    2010                  2009
Budgetary resources:
  Unobligated balance, brought forward                     $      6,224,904             5,256,086
  Budget authority
    Appropriations received (assessments)                        10,931,292            10,717,796
           Total budgetary resources                       $     17,156,196            15,973,882
Status of budgetary resources:
  Obligations incurred (Note 6)
     Direct                                                $      9,286,561             9,748,978
  Unobligated balances - available:
     Other available - exempt from apportionment                  7,869,635             6,224,904
            Total status of budgetary resources            $     17,156,196            15,973,882
Change in obligated balance:
  Obligated balance , net
    Unpaid obligations, brought forward, October 1         $              —               344,739
  Obligations incurred, net                                        9,286,561            9,748,978
  Less: Gross Outlays                                             (9,260,485)         (10,093,717)
  Obligated balance, net, end of period
    Unpaid obligations                                     $          26,076                     —
Outlays:
 Gross Outlays                                             $      9,260,485            10,093,717
 Net outlays                                               $      9,260,485            10,093,717


See accompanying notes to financial statements.




                                              U.S. Department of Labor – Office of Inspector General
                                         14                       Report Number: 22-11-005-04-432
                                      District of Columbia Workmen’s Compensation Act Special Fund
                                                Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2010 and 2009


(1)    Summary of Significant Accounting Policies
      The principal accounting policies which have been followed by the Fund in preparing the
      accompanying financial statements are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of operations,
            changes in net position, and budgetary resources of the District of Columbia
            Workmen’s Compensation Act Special Fund (the Fund). Office of Workers’
            Compensation Programs (OWCP), Division of Longshore and Harbor Workers’
            Compensation program (DLHWC). The DLHWC has direct responsibility for
            administration of the Fund. The Fund offers compensation, and in certain cases,
            medical care payments to District of Columbia employees for work related injuries
            or death incurred on or before July 26, 1982. Effective July 26, 1982, the District of
            Columbia Workmen’s Compensation Act was amended whereby the Mayor of the
            District of Columbia became responsible for administration and operation of a
            separate special fund to cover post July 26, 1982, injury cases.
            Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h)
            provides annual wage increase compensation (cost of living adjustments). Fifty
            percent of this annual wage increase for pre-1972 compensation cases is paid by
            Federal appropriated funds and fifty percent is paid by the Fund through the annual
            assessment. Appropriated funding for 10(h) is not reflected in the accompanying
            financial statements. Appropriated funding is reflected in the Federal Employees
            Compensation Act’s Special Benefit Fund. Also, these financial statements do not
            include the Special Fund administered by the Mayor of the District of Columbia for
            injury cases occurring after July 26, 1982.
      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of operations,
            changes in net position and budgetary resources, in accordance with U.S. generally
            accepted accounting principles and the form and content requirements of OMB
            Circular A-136. These financial statements have been prepared from the books and
            records of the Fund. These financial statements are not intended to present, and do
            not present, the full cost of the District of Columbia Workmen’s Compensation
            (DCCA) program administered under the Longshore and Harbor Workers’
            Compensation Act Program (Longshore Program). In addition to the Fund costs
            presented in these statements, the full cost of the DCCA portion of the Longshore


                                               U.S. Department of Labor – Office of Inspector General
                                             15                    Report Number: 22-11-005-04-432
                                District of Columbia Workmen’s Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report



                      DISTRICT OF COLUMBIA WORKMEN’S
                      COMPENSATION ACT SPECIAL FUND
                          Notes to the Financial Statements
                     Years ended September 30, 2010 and 2009


      Program would include certain direct costs of OWCP in the form of salaries and
      expenses for administration of the Longshore Program and allocated costs of
      OWCP and other DOL agencies incurred in support of the Longshore Program. The
      full cost of the DCCA portion of the Longshore Program is included in the DOL
      Consolidated Financial Statements and related notes. The Fund is considered a
      fiduciary activity of DOL, and is properly disclosed and reported in the consolidated
      financial statements of DOL as a fiduciary fund.
      U.S. generally accepted accounting principles encompass both accrual and
      budgetary transactions. Under accrual accounting, revenues are recognized when
      earned, and expenses are recognized when a liability is incurred. Budgetary
      accounting facilitates compliance with legal constraints on, and controls over, the
      use of federal funds. These financial statements are different from the financial
      reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
      Fund’s use of budgetary resources.
(c)   Funds with U.S. Treasury
      The Fund does not maintain cash in commercial bank accounts. Cash receipts and
      disbursements are processed by the U.S. Treasury. The Funds with U.S. Treasury
      are trust funds that are available to pay current liabilities and finance authorized
      purchase commitments.
(d)   Investments
      Investments in U.S. Government securities are reported at cost, net of unamortized
      premiums or discounts, which approximate market value. Premiums or discounts
      are amortized on a straight-line basis, which approximates the effective interest
      method. The Fund’s intent is to hold investments to maturity, unless they are
      needed to finance claims or otherwise sustain the operations of the Fund. No
      provision is made for unrealized gains or losses on these securities because, in the
      majority of cases, they are held to maturity.
(e)   Accounts Receivable, Net of Allowance
      The amounts due as receivables are stated net of an allowance for uncollectible
      accounts. The allowance is estimated based on past experience in the collection of
      the receivables and an analysis of the outstanding balances. Accounts receivable
      are comprised of assessments receivable and Fund benefit overpayments to
      individuals primarily from awarded compensation orders and corrections of payment
      computations.

                                         U.S. Department of Labor – Office of Inspector General
                                       16                    Report Number: 22-11-005-04-432
                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report



                      DISTRICT OF COLUMBIA WORKMEN’S
                      COMPENSATION ACT SPECIAL FUND
                          Notes to the Financial Statements
                     Years ended September 30, 2010 and 2009


(f)   Accrued Benefits Payable
      The Fund provides compensation and medical benefits for work related injuries to
      employees of the District of Columbia that were incurred on or before July 26, 1982.
      The Fund recognizes a liability for disability benefits payable to the extent of unpaid
      benefits applicable to the current period. It does not include a liability for those
      estimated claims to be presented and paid by the fund related to covered workers in
      future years. Ultimate responsibility for the payment of such claims rests with the
      employer organizations. Accrued disability benefits payable as of September 30,
      2010 amounted to $26,076. All disability payments due and payable as of
      September 30, 2009 were paid as of September 30, 2009.
(g)   Assessment Overpayment by Carriers
      Assessment overpayments are current liabilities and are to be refunded upon
      insurance carrier or self-insured employer’s request or applied to reduce future
      assessments. The assessment overpayments are contained within the other
      liabilities line item on the balance sheet.
(h)   Deferred Revenue
      Deferred revenues represent the unearned assessment revenue as of
      September 30, the Fund’s accounting year end. The annual assessments cover a
      calendar year and, accordingly, the portion extending beyond September 30 has
      been deferred. Deferred revenues reported on the balance sheets are considered
      “Other Liabilities” under OMB Circular A-136.
(i)   Financing Sources Other Than Exchange Revenue
      Non-exchange revenues arise from the Federal government’s power to demand
      payments from and receive donations from the public. Non-exchange revenues are
      recognized by the Fund for assessments levied against the public and interest
      income from investments.




                                          U.S. Department of Labor – Office of Inspector General
                                        17                    Report Number: 22-11-005-04-432
                                             District of Columbia Workmen’s Compensation Act Special Fund
                                                       Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                  Notes to the Financial Statements
                           Years ended September 30, 2010 and 2009


             The Fund’s primary source of revenue is annual assessments levied on insurance
             carriers and self-insured employers. Assessments are recognized as non-exchange
             revenue when due. The Fund also receives interest on Fund investments and on
             Federal funds in the possession of non-Federal entities.
(2)    Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2010 and 2009 consisted of cash deposits of
      $353,404 and $994,978 respectively. There was $60 in cash deposits at September 30,
      2010 and $5 in cash deposits at September 30, 2009 being held as security by authority
      of Section 32 of the Longshore and Harbor Workers’ Compensation Act in the Funds with
      U.S. Treasury balance. Section 32 funds relate to the default of self-insured employers
      and are available for payment of compensation and medical benefits to covered
      employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2010 consisted of the following:
                                                      Entity Assets
                               Unobligated     Unobligated     Obligated
                                Balance         Balance       Balance Not    Total        Non-entity
      (In Dollars)              Available      Unavailable Yet Disbursed Entity Assets     Assets       Total

      Special Fund         $           —               —        353,404       353,404             —     353,404



      Funds with U.S. Treasury at September 30, 2009 consisted of the following:
                                                      Entity Assets
                               Unobligated     Unobligated     Obligated
                                Balance         Balance       Balance Not    Total       Non-entity
      (In Dollars)              Available      Unavailable Yet Disbursed Entity Assets    Assets       Total

      Special Fund         $           —               —       994,978       994,978            —      994,978




                                                       U.S. Department of Labor – Office of Inspector General
                                                     18                    Report Number: 22-11-005-04-432
                                          District of Columbia Workmen’s Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKMEN’S
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2010 and 2009


(3)    Investments
      Investments at September 30, 2010 and 2009 consisted of the following:
                                                              September 30, 2010
                                             Face           Premium          Net              Market
      (In Dollars)                           Value         (Discount)      Value              Value
      Intragovernmental securities:
         Marketable                   $    5,143,000               —        5,143,000       5,143,000



                                                              September 30, 2009
                                             Face           Premium          Net              Market
      (In Dollars)                           Value         (Discount)      Value              Value
      Intragovernmental securities:
         Marketable                   $    5,228,000               —        5,228,000       5,228,000



      Investments of $58,700 at September 30, 2010 and 2009 are being held as security by
      authority of Section 32 of the Longshore and Harbor Workers’ Compensation Act.
      Section 32 investments relate to the default of self-insured employers and are restricted.
      These investments are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies. Investments at September 30, 2010 and
      2009 consist of overnight securities. Investments at September 30, 2010 bear an interest
      rate of 0.13 % compared to an interest rate of 0.07% at September 30, 2009. Interest
      rates on securities bought and sold during FY 2010 ranged from 0.01% to 0.17%
      compared to 0.01% to 1.03% for FY 2009.




                                                   U.S. Department of Labor – Office of Inspector General
                                                 19                    Report Number: 22-11-005-04-432
                                               District of Columbia Workmen’s Compensation Act Special Fund
                                                         Financial Statements and Independent Auditors’ Report



                                DISTRICT OF COLUMBIA WORKMEN’S
                                COMPENSATION ACT SPECIAL FUND
                                       Notes to the Financial Statements
                                Years ended September 30, 2010 and 2009


(4)    Accounts Receivable, Net
      Accounts receivable at September 30, 2010 and 2009 consisted of the following:
      (In Dollars)                                                                 2010                2009
      Entity assets:
         Benefit overpayments                                               $     136,234      $      164,184
         Assessments receivable                                                    12,647             539,015
         Less: allowance for doubtful accounts                                     (1,373)            (28,860)
           Total accounts receivable from the public, net                   $     147,508      $      674,339


      Assessments receivable represent the unpaid annual assessments from the current and
      prior years. Accounts receivable from overpayments to claimants arise primarily from
      amended compensation orders and corrections of payment computations. These
      receivables are being primarily recovered by partial and total withholding of benefit
      payments.
      Changes in the allowance for doubtful accounts during FY 2010 and FY 2009 consisted
      of the following:
                                                                           2010
                                       Allowance         Write        Revenue                      Allowance
      (In Dollars)                   October 1, 2009     Offs        Adjustment   Bad Debt     September 30, 2010

      Entity assets:
        Benefit overpayments     $           (1,910)         —              —          853                (1,057)
        Assessment receivable               (26,950)         —              —       26,634                  (316)

                                 $          (28,860)         —              —       27,487                (1,373)


                                                                           2009
                                       Allowance         Write        Revenue                      Allowance
      (In Dollars)                   October 1, 2008     Offs        Adjustment   Bad Debt     September 30, 2009

      Entity assets:
        Benefit overpayments     $           (2,631)             —           —          721                (1,910)
        Assessment receivable                    —               —           —      (26,950)              (26,950)

                                 $           (2,631)             —           —      (26,229)              (28,860)




                                                         U.S. Department of Labor – Office of Inspector General
                                                       20                    Report Number: 22-11-005-04-432
                                               District of Columbia Workmen’s Compensation Act Special Fund
                                                         Financial Statements and Independent Auditors’ Report



                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND
                                      Notes to the Financial Statements
                               Years ended September 30, 2010 and 2009


(5)    Other Liabilities
      Other liabilities at September 30, 2010 and 2009 consisted of the following current
      liabilities:
      (In Dollars)                                                         2010               2009
      Other liabilities:
         Assessment overpayments by carriers                        $       565,153                  709
         Defaulted employer liability:
           Held in investments                                               58,700            58,700
           Held in cash                                                          60                 5
                                                                             58,760            58,705
                     Total other liabilities                        $       623,913            59,414


      Assessment overpayments are to be refunded upon request or applied to reduce future
      assessments.
      Defaulted employer liability relates to the funds and investments held by the District of
      Columbia Special Fund which are being held as security by authority of Section 32 of the
      Act. These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies. Management estimates that these
      funds and investments held will be sufficient to cover the future benefits associated with
      the covered employees.




                                                        U.S. Department of Labor – Office of Inspector General
                                                      21                    Report Number: 22-11-005-04-432
                                         District of Columbia Workmen’s Compensation Act Special Fund
                                                   Financial Statements and Independent Auditors’ Report



                              DISTRICT OF COLUMBIA WORKMEN’S
                              COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                             Years ended September 30, 2010 and 2009


(6)    Status of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
            Obligations incurred reported on the Statement of Budgetary Resources in FY 2010
            and FY 2009 consisted of the following:
            (In Dollars)                                                    2010              2009
            Direct Obligations:
               Exempt from apportionment                          $        9,286,561         9,748,978


      (b)   Explanation of Differences Between the Statement of Budgetary Resources
            and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30, 2009 is
            shown below:
                                                                                 2009
                                                              Budgetary       Obligations
            (Dollars in Millions)                             Resources        Incurred       Outlays
            Statement of Budgetary Resources - LSHW       $        192                 131        136

            Statement of Budgetary Resources - DCCA                   16               10            10

            Total Statement of Budgetary Resources                 208                 141        146

            Budget of the United States Government        $        208                 141        146




                                                  U.S. Department of Labor – Office of Inspector General
                                                22                    Report Number: 22-11-005-04-432
                                        District of Columbia Workmen’s Compensation Act Special Fund
                                                  Financial Statements and Independent Auditors’ Report



                               DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2010 and 2009


(7)    Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                           2010              2009
        Obligations incurred                                        $    9,286,561         9,748,978
                   Total resources used to finance activities            9,286,561         9,748,978
        Resources used to finance items not part of the
          net cost of operations
          Resources that finance the acquisition of assets                        —               —
                   Total resources used to finance items
                     not part of the net cost of operations                       —               —
                   Total Resources used to finance the
                     net cost of operations                              9,286,561         9,748,978
        Components not requiring or generating resources:
          Revaluation of assets and liabilities                               (853)               —
          Other                                                             72,685            28,305
                   Total components of net cost of operations
                     that will not require or generate resources            71,832            28,305
                        in the current period
                   Net cost of operations                           $    9,358,393         9,777,283

(8)    Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at a
      time for current expenses; there is no reserve for future Fund obligations. In keeping
      with the requirement of Section 44 of the Longshore and Harbor Workers’ Compensation
      Act, obligations are paid as they are incurred. Assessments are based on compensation
      and medical benefits paid in the prior calendar year. As previously discussed, the
      District of Columbia Workmen’s Compensation Act of 1928 has been repealed and the
      Fund only assesses based on payments in cases that arose on or before July 26, 1982.
      Therefore, the annual Special Fund assessment is assessed for a shrinking population of
      claims. These assessments are concentrated among a relatively few insurance carriers
      and self insured employers. For example, the largest ten insurance carriers and self
      insured employers alone fund over 64% of the Fund assessments.




                                                  U.S. Department of Labor – Office of Inspector General
                                                23                    Report Number: 22-11-005-04-432
